tj

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
1

Records

United States Courts of Appeals

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition to Conditional CrossPetition for a Writ of Certiorari in 20-1363, Merit
Medical Systems Inc. v. Nazir Khan, Iftikhar Khan,
was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 13th
day of April, 2021:
David R. Todd
Workman Nydegger
60 East South Temple
Suite 1000
Salt Lake City, UT 84111
(801) 533-9800
dtodd@wnlaw.com

Counsel for Cross-Petitioner
Jonathan A. Herstoff
Counsel of Record
Camille Y. Turner
Kaitlin M. Abrams
Haug Partners LLP
745 Fifth Avenue
New York, NY 10151
(212) 588-0800
jherstoff@haugpartners.com

Counsel for Cross-Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 13, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

CL1p;/!5,

d:)J-j

dvu PJ. 'J:w&

Notary Public
[seal]

JOHN D. GALLAGHER
Nolarv Public, State rA Ohio
My Commission Explres
f'brumy 1 ;ir . 3

